CERTIFICATE OF COMPLAINCE
No.07-

Dale Sawyer Eisele
Petitioner

v.

The Estate of Joseph Brodie Smith
Respondent

As required by the Supreme Court Rule33.1(h), I certify that the
petition for a writ of certiorari contains 3753 words, excluding
the parts of the petition that are exempted by Supreme Court
Rule 33.1(d). Parts that are included are Petition for a

Writ of

Certiorari, Decision and Order Below, Jurisdiction, Statement of
Case, Reason for Granting Writ and Conclusion.

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on —i

Petitioner

use

off!

